NO. 20-5396
IN THE SUPREME COURT OF THE UNITED STATES
AUSTIN PETERSON,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE OF SERVICE
Attorney Aarin E. Kevorkian, pursuant to Supreme Court Rule 29, certifies
she served the within Reply Brief for Petitioner to The Court Of Appeals For The
Ninth Circuit on counsel for Respondent by enclosing a copy thereof in an envelope,
postage prepaid, addressed to:
Jeffrey B. Wall, Acting Solicitor General of the United States
Office of Solicitor General
Room 5614
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530; and
and depositing same with the United Parcel Service in Las Vegas, Nevada, this 26th
day of October, 2020, and further certifies that all parties required to be served
have been served.
/s/ Cristen C.Thayer
Cristen C. Thayer
Assistant Federal Public Defender

